             Audit Report




Adjustments to Widow’s Benefits at
       Full Retirement Age




       A-01-12-11299 | March 2013
MEMORANDUM


Date:      March 22, 2013                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration took corrective action based on our two prior reports
           and correctly adjusted benefits to widow(er)s when they attained full retirement age.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Adjustments to Widow’s Benefits at Full Retirement Age
A-01-12-11299

March 2013                                                                Office of Audit Report Summary

Objective                                  Our Findings

To determine whether the Social            SSA improved its process to adjust widow’s benefits at full
Security Administration (SSA) took         retirement age. However, we still found some widows were
corrective action based on our two         underpaid. We estimated 1,444 widows were underpaid about
prior reports and correctly adjusted       $7.7 million and will continue being underpaid about $30.5 million
benefits to widow(er)s when they           over their lifetimes unless SSA takes action.
attained full retirement age.
                                           Additionally, our analysis showed that SSA addressed the
Background                                 19,813 potentially underpaid widows’ cases we provided to SSA at
                                           the time of our prior two reviews.
SSA administers the Old-Age,
Survivors and Disability Insurance         Our Recommendation
program under Title II of the Social
Security Act. Some beneficiaries are       We recommend that SSA review the 1,503 cases we identified that
entitled both to disability benefits and   appeared to be underpaid and take action to pay the additional
widow’s benefits. For some                 amounts due these widows.
beneficiaries, the widow’s benefits are
adjusted, and the reduction for age is     SSA agreed with the recommendation.
eliminated when disability benefits end
and retirement benefits are awarded.

As a result of our prior reports, we
provided 19,813 potentially underpaid
widows’ cases to SSA for corrective
action.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Sample Results ...........................................................................................................................3
     Cases from Prior Reviews ..........................................................................................................3
Conclusions ......................................................................................................................................4
Recommendation .............................................................................................................................4
Agency Comments ...........................................................................................................................4
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Agency Comments .............................................................................................. B-1
Appendix C – Major Contributors.............................................................................................. C-1




Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)
ABBREVIATIONS
FRA                  Full Retirement Age

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

SSA                  Social Security Administration

U.S.C.               United States Code




Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) took
corrective action based on our two prior reports and correctly adjusted benefits to widow(er)s
when they attained full retirement age.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance program under Title II of the
Social Security Act. 1 The program provides monthly benefits to retired or disabled workers and
their families and to survivors of deceased workers.

Some beneficiaries are entitled both to disability benefits based on their own earnings and to
widow’s benefits based on the earnings of their deceased spouse. 2 Disability benefits generally
are not reduced based on the beneficiaries’ age. However, widow’s benefits are reduced when
beneficiaries elect to receive them before they reach their full retirement age (FRA). 3

For beneficiaries entitled under both programs, if the widow’s benefits started when the
disability benefits began or later, the widow’s benefits are adjusted and the reduction for age is
eliminated when disability benefits end and retirement benefits are awarded.

Usually, this occurs when the beneficiary attains FRA. 4 In December 2010, about 3.8 million
beneficiaries were dually entitled to both retirement benefits and widow’s benefits. 5

We previously reported on widow’s benefits not adjusted at FRA.

•      In May 2007, we estimated about 9,750 beneficiaries were underpaid approximately
       $114 million through November 2006 and recommended SSA make necessary modifications
       to its automated programs. SSA implemented a computer system enhancement in
       May 2008. 6



1
    Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
2
 SSA, POMS, RS 00615.020 (effective April 13, 2011). Throughout this report, we use the term “widows” to refer
both to widows and widowers.
3
    SSA, POMS, RS 00615.010 (effective November 6, 2009).
4
 Social Security Act § 202(q)(3), 42 U.S.C. § 402(q)(3). FRA for people born before January 2, 1938 is age 65.
The FRA increases gradually until it reaches age 67 for people born January 2, 1960 or later. Social Security Act
§ 216(l), 42 U.S.C. § 416(l). See also SSA, POMS, RS 00615.003, (effective May 21, 2004).
5
    SSA, Annual Statistical Supplement to the Social Security Bulletin, 2011, Table 5.G2.
6
    SSA OIG, Adjustment of Widow’s Insurance Benefits at Full Retirement Age (A-01-07-27122), May 2007.



Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)                                              1
•     In May 2008, we estimated about 8,400 beneficiaries were owed approximately
      $95.1 million through February 2008. 7

For our current review, we identified 2,859 widows who appeared to have been underpaid as of
February 2012, and we randomly sampled 200 for detailed analysis. 8 (See Appendix A for
additional information about our scope, methodology, and sample results.)

RESULTS OF REVIEW
SSA improved its process to adjust widow’s benefits at FRA. However, we still found some
widows were underpaid. Based on our sample, we estimated 1,444 widows were underpaid
about $7.7 million and will continue being underpaid about $30.5 million over their lifetimes
unless SSA takes action. 9 Chart 1 and 2 compare the number of underpaid widows and the
amounts underpaid from our 2007, 2008, and 2012 reviews.

      Chart 1: Estimated Number                                    Chart 2: Estimated Amount
        of Underpaid Widows                                         Underpaid As of Review




7
    SSA OIG, Underpayments to Widows (A-01-08-28116), May 2008.
8
    See Appendix A, Tables A–4 and A–5, for a break-out of these cases by program service center and by State.
9
 To estimate the amount of additional benefits owed these widows in the future, we multiplied the last monthly
underpayment amount by the number of months the beneficiaries are expected to live beyond February 2012. We
used the 2007 life expectancy rates published by the Department of Health and Human Services, Centers for Disease
Control and Prevention (National Vital Statistics Report, Vol. 59, No. 9, Tables 2 and 3, September 28, 2011,
pages 10 - 13).




Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)                                           2
In May 2008, SSA implemented a computer system enhancement that automated the processing
of most dually entitled cases. By combining payments from the widow’s and the deceased
spouse’s records at FRA, the system removed the reduction to the widow’s benefit amount. In
May 2012, we contacted the Office of Systems to discuss the enhancement. Although most of
the adjustments are now automated, SSA’s system cannot automatically process all cases and
SSA staff must review and manually adjust the payment for some cases.

For example, if more than one widow is entitled on a deceased person’s record, the system will
not process the adjustment. Instead, it will generate an alert for SSA staff to review the case and
take necessary action. For instance, one of the widows in our sample attained FRA in August
2009, but another widow was also entitled on the deceased person’s record. SSA’s system did
not automatically adjust the benefits for our sampled widow, and consequently at the time of our
review she was receiving $223 less each month than she was due. We referred the case to SSA
in April 2012, and staff adjusted the widow’s benefits and issued a $6,494 underpayment. We
could not determine whether the case was automatically identified for adjustment, or was
identified, but then was not manually corrected by SSA staff.

Sample Results
SSA improved its process for adjusting widow’s benefits at FRA. We found that the Agency
adjusted benefits to prevent underpayments to 55 (28 percent) of the 200 widows in our sample.
However, SSA did not properly adjust benefits at FRA to 101 (50 percent) of the 200 widows in
our sample. These 101 widows were owed approximately $535,979 through February 2012.

For example, one widow attained FRA in August 2010, and her disability benefits were
converted to retirement benefits. At that time, she was entitled to receive an additional $125 per
month in widow's benefits. As of February 2012—when she was 67 years of age—her benefits
had not been adjusted. As a result, she was owed approximately $2,388. After our review, SSA
adjusted benefits to this widow and issued an underpayment for additional benefits due since
August 2010. Had SSA not taken action to correct her benefit payments, we estimate this widow
would have been underpaid $27,789 in the future.

The remaining 44 cases (22 percent) were not due an increase at FRA. For example, in one case,
two widows were receiving benefits on the deceased person’s record, and SSA was correctly
paying the maximum total benefit amount from that record.

Cases from Prior Reviews
At the time of our prior 2 reviews, we provided 19,813 potentially underpaid widows’ cases to
SSA for review and appropriate corrective action. 10 Our November 2012 analysis showed that
SSA addressed these cases.



10
  We provided 10,210 cases to SSA from our May 2007 audit (A-01-07-27122) and 9,603 cases from our May 2008
audit (A-01-08-28116).



Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)                                    3
CONCLUSIONS
SSA improved its process to adjust benefits to widows at FRA. As a result, the Agency adjusted
benefits at FRA for more widows than it had when we issued our two prior reports. However,
SSA continued paying some widows less than they were due after FRA. Although the
1,444 beneficiaries we estimated were underpaid represented a small fraction of dually entitled
widows, 11 they were underpaid about $7.7 million through February 2012. Additionally, we
estimate they will be underpaid about $30.5 million in the future unless SSA takes action to
correct their benefits.

RECOMMENDATION
Therefore, we recommend that SSA review the 1,503 cases we identified that appear to be
underpaid and take action to pay the additional amounts due these widows.

AGENCY COMMENTS
SSA agreed with the recommendation. See Appendix B.




11
  Our estimate of 1,444 underpaid widows is 0.04 percent of the 3.8 million dually entitled beneficiaries who
received both retirement and widow’s benefits.




Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)                                          4
                                       APPENDICES




Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures.

•   Identified a population of 2,859 individuals receiving benefits in February 2012 whose
    benefits appeared to have not been properly adjusted when they attained full retirement age
    (FRA) and their disability benefits were converted to retirement benefits. 1

•   Randomly sampled 200 beneficiaries from the population for detailed analysis. For each
    sampled beneficiary, we reviewed the electronic benefit records on SSA’s systems.

         If benefits should have been adjusted at FRA but were not, we calculated the amount
          of benefits that should have been paid between the beneficiary’s FRA and the earlier
          of February 2012 or his/her date of death.

         If the beneficiary was receiving benefits, as of February 2012, we multiplied the last
          monthly underpayment amount by the number of months the beneficiary was expected
          to live beyond February 2012 to estimate the amount of additional benefits that will be
          owed to the beneficiary in the future. 2

SSA reviewed 102 of our 200 sample cases and took action to adjust those that were underpaid. 3
Based on the Agency’s feedback on the cases, we concluded 101 of our 200 sample cases were
underpaid. Additionally, we reviewed our population of 2,859 and provided the Agency 1,402
cases that appeared most likely underpaid. Therefore, in total, we identified 1,503 cases that
appeared underpaid.




1
 Initially, we identified dually entitled widows as of February 2011; but then we updated the data as of
February 2012. To identify this population, we also excluded any beneficiary who was in the population for either
of our prior reports—Adjustment of Widow’s Insurance Benefits at Full Retirement Age (A-01-07-27122),
May 2007, and Underpayments to Widows (A-01-08-28116), May 2008.
2
 We used the life expectancy rates published by the Department of Health and Human Services, Centers for Disease
Control and Prevention (Tables 2 and 3: Department of Health and Human Services, National Vital Statistics
Reports, Vol. 59, No. 9, September 2011, pages 10 through 13).
3
  We provided 100 cases to SSA’s Office of Quality Performance on March 14, 2012, and 5 cases to the Office of
Public Service and Operations Support on March 23, 2012. (Three of the five cases we sent to the Office of Public
Service and Operations Support were included in the 100 we had sent to the Office of Quality Performance;
therefore we provided 102 cases.)




Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)                                         A-1
We performed analysis to determine whether the Agency had addressed the 19,813 potentially
underpaid widow cases we sent to SSA as part of our prior reviews. 4

We conducted our audit between February and November 2012 in Boston, Massachusetts. The
principal entities audited were SSA's program service centers under the Office of the Deputy
Commissioner for Operations, and the Office of Retirement and Survivors Insurance Systems
under the Office of the Deputy Commissioner for Systems. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We tested the
data obtained for our review and determined them to be sufficiently reliable to meet our
objective. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Population and Sample Information
                               Table A–1: Population and Sample Size
                                     Population Size                   2,859
                                      Sample Size                       200

Table A–2: Beneficiaries Who Were Underpaid Because Their Benefits Were Not Properly
    Adjusted When Disability Ended and Retirement Benefits Were Awarded at FRA
                                                  Additional Benefits          Estimated Additional
     Number of Widows Underpaid
                                                   Owed Through                Benefits to Be Owed
       Through February 2012
                                                   February 2012               After February 2012
     Identified in sample              101                 $535,979                 $2,130,927
     Point estimate                  1,444              $7,661,824                 $30,461,596
     Projection lower limit          1,277              $5,552,305                 $24,577,870
     Projection upper limit          1,610              $9,771,342                 $36,345,322
     Note:   All projections are at the 90-percent confidence level.




4
 We provided 10,210 cases to SSA from our May 2007 audit (A-01-07-27122) and 9,603 cases from our May 2008
audit (A-01-08-28116).




Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)                                 A-2
                       Table A–3: Comparison of Current and Prior Reviews
                                       Current Review               OIG Review        OIG Review
                                       A-01-12-11299               A-01-08-28116,    A-01-07-27122,
                                                                  Issued May 2008   Issued May 2007
Date population identified              February 2012              January 2008     September 2004

Size of sampled population                       2,859                    9,603            10,210
Estimated number of
                                                 1,444                    8,403             9,751
underpaid widows
Estimated amount underpaid
                                          $7,661,824                $95,061,451      $113,721,946
at time of review
Note:   All projections are at the 90-percent confidence level.


 Based on our review of 200 sample cases, we analyzed the population of 2,859 and identified
 1,503 cases that are most likely underpaid.

    Table A–4: Population of Most Likely Underpaid Widows by Program Service Center
                        Responsible Program Service Center                              Beneficiaries

Northeastern Program Service Center                                                           154
Mid-Atlantic Program Service Center                                                           223
Southeastern Program Service Center                                                           404
Great Lakes Program Service Center                                                            267
Western Program Service Center                                                                244
Mid-America Program Service Center                                                            201
Office of International Operations                                                             10

                                           TOTAL                                            1,503




 Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)                             A-3
                 Table A–5: Population of Most Likely Underpaid Widows by State
       State                 Beneficiaries                     State        Beneficiaries
     Alabama                         49                      Nebraska               7
      Alaska                          3                       Nevada               10
     Arizona                         23                  New Hampshire              5
     Arkansas                        14                     New Jersey             43
    California                      135                    New Mexico               9
     Colorado                        28                     New York               64
   Connecticut                       11                   North Carolina           65
     Delaware                         6                   North Dakota              2
      Florida                       110                        Ohio                68
     Georgia                         66                     Oklahoma               16
      Hawaii                          5                       Oregon               18
      Idaho                           9                    Pennsylvania            65
      Illinois                       50                    Puerto Rico             25
      Indiana                        26                    Rhode Island            10
       Iowa                           6                   South Carolina           29
      Kansas                         13                   South Dakota              5
    Kentucky                         41                     Tennessee              47
    Louisiana                        34                       Texas                75
      Maine                          10                        Utah                 4
    Maryland                         21                      Vermont                5
  Massachusetts                      17                      Virginia              26
     Michigan                        56                    Washington              28
    Minnesota                         8                   West Virginia            30
    Mississippi                      30                     Wisconsin              28
     Missouri                        31                     Wyoming                 3
     Montana                          4                  Outside the U.S.          10
                                  TOTAL                                        1,503




Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)                      A-4
           Appendix B – AGENCY COMMENTS




                                            SOCIAL SECURITY

 MEMORANDUM

Date:      February 21, 2013                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Kate Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Adjustments to Widows Benefits at Full
           Retirement Age” (A-01-12-11299)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comment.

           Please let me know if we can be of further assistance. You may direct staff inquiries to Gary S.
           Hatcher at (410) 965-0680.

           Attachment




           Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)                        B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ADJUSTMENTS TO WIDOWS BENEFITS AT FULL RETIREMENT AGE”
(A-01-12-11299)

Recommendation


Review the 1,503 cases we identified that appear to be underpaid and take action to pay the
additional amounts due these widows.


Response

We agree. The Office of Quality Performance is currently analyzing these cases and, based on
their findings, we will take action to review and process any underpayments due as resources
permit.




Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)                        B-2
Appendix C – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

David Mazzola, Audit Manager

Kevin Joyce, IT Specialist

David York, Program Analyst

Brennan Kraje, Statistician




Adjustments to Widow’s Benefits at Full Retirement Age (A-01-12-11299)   C-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
